(

' A

Ttnftefr States (LLmtri of Appeals
For the Seventh Circuit
Chicago, Illinois 60604

mvi-

Submitted August 14, 2020
Decided An gust 20. 2020

I'.

■SSHa*-

Before"

MICHAEL S. KANNE, Circuit Judge
AMY C. BARRETT, Circuit Judge

No. 17-2922
KEITH BARMORE,
Petitioner-Appellant,

Appeal from the United States District
A
Court for the Northern District of Illinois)
'< W estern Division.

V.

No. 15 C 50108
JOHN VARGA,
Respondent-Appellee.

Philip G. Reinhard,

Judge.
ORDER
Keith Barmore has filed a notice of appeal from die denial of his petition under
28 U.S.C. § 2254 and an application for a certificate of appealability. This court has
reviewed the final order of the district court and the record on appeal. We find no
substantial showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED. Barmore's
motions to proceed in forma pauperis and for appointment of counsel are DENIED. All
other outstanding motions are DENIED.

Appendix A-1 Exhibit.

m
r&Z

r-'x

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
WESTERN DIVISION
Keith D. Barmore (R-00683),

)
)

Petitioner,

)

V.

)
)

•T

)
Thomas Spiller, Warden of Pinckney ville
Correctional Center,
Respondent.

Case No: 15 C 50108

Judge Philip G. Reinhard

)
)
)
)

ORDER
For the following reasons, the court denies petitioner’s 28 U.S.C. § 22-54 petition [1], The court
declines to issue a certificate of appealability. This matter is terminated.

STATEMENT - OPINION
On January 10, 2000, petitioner Keith D. Barmore was convicted of Illinois first degree murder
for the murder of his three-year-old stepson. [18-8] at 164. On October 25, 2000, petitioner was
sentenced to 60 years imprisonment. See [18-12] at 75. On May 11, 2015, petitioner filed a 28 U.S.C. §
2254 petition in this court, challenging his Illinois sentence on eleven grounds. Respondent has filed a
response [17] and petitioner has filed a reply [21], as well as additional affidavits and supplements to his
reply and the record. See [22]; [23]; [33]; [35], The court accepts all of petitioner’s filings, including his
supplemental responses and additions to the record. This matter is now ripe for the court’s review.
As noted, petitioner has raised eleyen grounds challenging his conviction with regard to all stages
of his prosecution, ranging from claims of false testimony before the Grand Jury to ineffective assistance
of post-trial counsel. Plaintiff presented these claims before state courts both on direct appeal and in a
state postconviction petition. Both of these avenues resulted in Illinois Appellate Court decisions denying
petitioner relief; the Illinois Supreme Court denied all relevant petitions for leave to appeal. As such,
pursuant to the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), the decisions under
review are “the last state court that substantively adjudicated [petitioner’s] claimfs],” namely the Illinois
Appellate Court’s rulings in petitioner’s direct appeal [18-13] and his postconviction petition appeal [1827]. See Alston v. Smith, 840 F.3d 363, 367 (7th Cir. 2016).'
Under AEDPA, to merit habeas relief, the petitioner:
must demonstrate that the state court proceedings “(1) resulted in a decision that was
contrary to, or involved an unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United States; or (2) resulted in a decision
that was based on an unreasonable determination of the facts in light of the evidence

Appendix B~1 Exhibit.

r>v

✓

presented in the State court proceeding.” 28 U.S.C. § 2254(d)(1) and (2). Under §
2254(d)(1), a state-court decision is contrary to Supreme Court precedent if it is
inconsistent with the Supreme Court's treatment of a materially identical set of facts, or if
the state court applied a legal standard that is inconsistent with the rule set forth in the
relevant Supreme Court precedent,
And a state-court decision constitutes an
unreasonable application of Supreme Court precedent within the meaning of section
2254(d)(1) when, although it identifies the correct legal rule, it applies that rule to the
facts in a way that is objectively unreasonable. Under § 2254(d)(2), a state court's
decision involves an unreasonable determination of the facts if it “rests upon fact-finding
that ignores the clear and convincing weight of the evidence.” Corcoran v. Neal, 783
F.3d 676, 683 (7th Cir. 2015), cert, denied, 136 S. Ct. 1493 (2016); see also Miller-El v.
Cockrell, 537 U.S. 322, 340 (2003) (a federal court can, guided by AEDPA, conclude
that a state court's decision was unreasonable or that the factual premise was incorrect by
clear and convincing evidence).
Dassey v. Dittmann, 2017— F.3d
citations omitted).

-2017 WL 2683893, at *10 (7th Cir. June 22, 2017) (internal

Due to the large number of grounds petitioner has raised to challenge his sentence, the court will
analyze each in turn and discuss the relevant factual and procedural history in the respective sections.1
The parties are assumed to be familiar with the general facts of petitioner’s prosecution, trial, and post­
trial procedural history. For the following reasons, each of petitioner’s grounds for relief are without
merit and the court must deny his § 2254 petition.
A. Batson Claim.
Petitioner claims that prosecutors violated Batson by striking two prospective African-American
jurors, Margie Rogers and Sheila Council, based on their race. The Illinois Appellate Court rejected this
argument on direct appeal, finding that petitioner had not rebutted the prosecutors’ race-neutral
justification for striking the two prospective jurors by clear and convincing evidence. See [18-13] at 1518.
The United States Supreme Court has recently reiterated the proper standard for courts in
evaluating Batson claims:
First, a defendant must make a prima facie showing that a peremptory challenge has been
exercised on the basis of race; second, if that showing has been made, the prosecution
must offer a race-neutral basis for striking the juror in question; and third, in light of the
parties' submissions, the trial court must determine whether the defendant has shown
purposeful discrimination.
Foster v. Chatman, 136 S.Ct. 1737, 1747 (2016) (internal quotations omitted). The Seventh Circuit has
held that “[i]n the third step of the Batson analysis, the critical question is the persuasiveness of the raceneutral justification for the peremptory strike, which comes down to credibility.” Morgan v. City of
Chicago, 822 F.3d 317, 327 (7th Cir. 2016).

The court notes that the arguments in petitioner’s 40-page § 2254 petition are often difficult to discern. To the best
of the court’s ability, it has fairly presented petitioner’s arguments and claims, which encompass virtually all of the
claims made to the Illinois Court of Appeals in petitioner’s direct appeal and state habeas appeal. To the extent that
the court has failed to discern additional claims in the present § 2254 petition that were not presented to and
addressed by the Illinois Court of Appeals, those claims must be dismissed for failure to exhaust.
2
Appendix

b-2

Exhibit.

v"

Here, with regard to the Margie Rogers, the Illinois Appellate Court noted that the prosecution
had argued to the trial court that Ms. Rogers had been the only prospective juror that had been a counselor
for criminal offenders. Moreover, she had observed two murder trials out of personal interest where
fathers had been accused of murdering their young children, and in one of those trials the defendant had
been acquitted. As such, the prosecution argued that it believed she may have been biased in favor of
criminal defendants and unduly inclined to acquit. The court found that the underlying facts were
credible and the prosecution’s race-neutral basis for striking Ms. Rogers was sufficiently persuasive to
overcome petitioner’s accusation of purposeful discrimination. See id.
With regard to Sheila Council, the Illinois Appellate Court noted that the prosecution had argued
to the trial court that Ms. Council had been sleeping during voir dire, a factual finding that the trial court
had credited due to the prosecution’s credibility; the Illinois Appellate Court accepted the trial court’s
credibility finding. Moreover, the prosecution argued that questioning revealed that Ms. Council had
shown a disregard for her son’s ongoing legal issues, referring to him as a “bum.” As such, the
prosecution argued that it believed that this disregard, in combination with Ms. Council’s failure to
remain conscious during voir dire, suggested that she might not be committed to resolving the issues in
the case. The Illinois Appellate Court credited the underlying facts and found that they adequately
supported the prosecution’s reasoning; as such, the prosecution’s race-neutral basis for striking Ms.
Council was sufficiently persuasive to overcome petitioner’s accusation of purposeful discrimination. See
id.
The court has reviewed the record and cannot find that the Illinois Appellate Court’s findings
were an unreasonable application of Federal law or based on an unreasonable determination of the facts.
The court carefully reviewed the factual record and accorded the appropriate deferei ice to the trial court’s
relevant factual and credibility findings. Moreover, with regard to Ms. Rogers, the Seventh Circuit has
held that “[o]ur court has approved the exclusion of veniremen because of their professions.” See United
States v. Griffin, 194 F.3d 808, 826 (7th Cir. 1999) (collecting cases in which courts had found that
striking social workers was a race-neutral justification). With regard to Ms. Council, the Seventh Circuit
has found that “inattentiveness is a legitimate reason for striking a potential juror.” United States v.
Jones, 224 F.3d 621, 623-24 (7th Cir. 2000) (noting that the prosecution had accused one of the
prospective jurors as sleeping and the trial court, while not observing the sleeping, “accepted the
government's explanation regarding [the prospective juror] and we give that finding great deference”). As
such, the court does not find that petitioner’s Batson claim merits relief under 28 U.S.C. § 2254.
B. Sufficiency of the Evidence Claim.
Petitioner claims that the evidence at trial was insufficient to convict him of first degree murder.
The Illinois Appellate Court rejected this argument on direct appeal, finding that the evidence was
“sufficient to sustain the jury’s verdict.” See [18-13] at 19-21.
The United States Supreme Court has articulated the standard for evaluating a sufficiency of the
evidence claim under § 2254:
[E]vidence is sufficient to support a conviction so long as after viewing the evidence in
the light most favorable to the prosecution, any rational trier of fact could have found the
essential elements of the crime beyond a reasonable doubt.... [A] reviewing court faced
with a record of historical facts that supports conflicting inferences must presume—even
if it does not affirmatively appear in the record—that the trier of fact resolved any such
conflicts in favor of the prosecution, and must defer to that resolution .... [T]he

3

Appendix B-3 Exhibit,

I

deference to state court decisions required by § 2254(d) is applied to the state court's
already deferential reviewf.]
Cavazos v. Smith, 565 U.S. 1, 7 (2011).
Here, the Illinois Appellate Court expressly applied that standard. The court has reviewed the
factual record and the Illinois Appellate Court’s analysis of the facts in the case as they apply to the
elements of Illinois first-degree murder. The court pointed out the evidence from a witness that petitioner
took the victim into a bathroom after becoming angry when the victim had become ill. The witness heard
a “bump,” after which the victim was “out of it.” See [18-13] at 20. Further, the court described expert
testimony that the injuries that killed the victim were “caused by some combination of violent shaking
and violent impact,” and that the victim’s injuries “had been so severe that they most likely had been
‘deliberately inflicted.’” See id. at 20-21.
This court cannot find that the Illinois Appellate Court was unreasonable in determining that “any
rational trial of fact could have found the essential elements of the crime beyond a reasonable doubt,” and
as such the court does not find that petitioner’s sufficiency claim merits relief under 28 U.S.C. § 2254.
C. Improper Closing Arguments Claim.
Petitioner next raises a Darden claim, arguing that his trial was rendered unfair and he was
deprived of due process because of certain comments made during the prosecutions’ closing arguments.
The Illinois Appellate Court rejected this argument on direct appeal, finding that the comments were not
prejudicial due to the “overwhelming evidence” that petitioner was guilty of first-degree murder. See
[18-13] at 22-24.
The Seventh Circuit has held that when a petitioner raises a Darden claim, “[i]n determining
whether the prosecutors' remarks were prejudicial ... ‘it is not enough that the prosecutors' remarks were
undesirable or even universally condemned. The relevant question is whether the prosecutors' comments
so* infected the trial with unfairness as to make the resulting conviction a denial of due process.’” Ellison
v. Acevedo, 593 F.3d 625, (7th Cir. 2010) (quoting Darden v. Wainwright, 477 U.S. 168, 181 (1986)).
Here, petitioner requested that the jury consider an involuntary manslai ghter verdict, which
requires a mens rea of recklessness, rather than first-degree murder, which requires knowledge or intent.
During closing argument, the prosecutor stated “what is even more despicable about this abuse [of the
victim] is this abuser’s attempt to play with the system here to go and get an involuntary manslaughter
conviction, escape responsibility for delivering that abuse.” See [18-8] at 141. It is clear from the context
of the closing arguments that the prosecution was arguing that there was no evidence to find that, if
petitioner had killed the victim, that he did it recklessly rather than knowingly or intentionally.
The Illinois Appellate Court correctly noted that the prosecution’s comments would not deprive
petitioner of due process if they were “harmless,” and the court concluded after a review of the evidence
that the comments were harmless because the evidence of first-degree murder was “overwhelming.” See
[18-13] at 22. This court agrees after a review of the relevant materials that if the jury were to find that
petitioner had killed the victim, there was little basis to find that it was without knowledge or intent as
specified by the Illinois first degree murder statute. As such, the court cannot find that the Illinois
Appellate Court’s findings were an unreasonable application of Federal law or based on an unreasonable
determination of the facts. Thus, the court does not find that petitioner’s Darden claim merits relief under
28 U.S.C. § 2254.

4

Appendix B-4 Exhibit.

D. Ineffective Assistance - Failure to Call an Expert.
Next, petitioner claims that his trial counsel was ineffective for failing to call an expert to testify
that the victim’s death could have been caused by an earlier fall at a jungle gym two weeks prior to his
death. The Illinois Appellate Court applied Strickland v. Washington, 466 U.S. 668 (1984), and affirmed
the dismissal of petitioner’s state habeas claim on this issue, finding that there was no prejudice because
“there is no reasonable probability that testimony from [defendant’s purported expert] or another medical
expert would have affected the outcome of the case.” See [18-27] at 9.
The standard for Strickland claims for ineffective assistance of trial counsel are well established
in the Seventh Circuit:
In Strickland, the Supreme Court established a two-part test for adjudicating ineffective
assistance of counsel claims that requires a petitioner to show (1) that counsel’s
performance was deficient, and (2) that the deficiency prejudiced his defense. To
establish deficiency, the petitioner must show that counsel's representation fell below an
objective standard of reasonableness. To demonstrate prejudice, the petitioner must show
that there is a reasonable probability that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different.
Rodriguez v. Gossett, 842 F.3d 531, 537-38 (7th Cir. 2016) (internal quotations omitted). “Under
AEDPA, the bar for establishing that a state court's application of the Strickland standard was
‘unreasonable’ is a high one. When § 2254(d) applies, the question is not whether counsel’s actions were
reasonable. The question is whether there is any reasonable argument that counsel satisfied Strickland's
deferential standard.” Makiel v. Butler, 782 F.3d 882, 897 (7th Cir. 2015) (internal quotations omitted).
The court has reviewed the factual record, including a post-trial hearing for a new trial at which
petitioner contended that an expert should have been called. Counsel testified he had thoroughly
investigated whether an independent expert could have been called to testify that the death could have
been a result of the jungle gym fall, but concluded based on discussions with expert consultants that his
retained expert “would, in fact, have to concur with many of the State’s witnesses” on cross examination
and would “end up testifying and bolstering the State’s case and their experts rather than helping us.” See
[18-11] at 59. Moreover, his discussions confirmed that no credible expert would be able to bolster
petitioner’s theory. See id. at 59-62. Also at the post-trial hearing, a physician that initially supplied
testimony supportive of petitioner’s theory changed his mind after re-reading the coroner’s report and
gave testimony consistent with the prosecution’s theory that the injury could not have been from a simple
fall but “would require a tremendous amount of force, that would immediately render one to an
unconscious state.” See id. at 90-91. Further, the court has reviewed the Illinois Appellate Court’s
analysis of the prosecution’s expert witness testimony, which bolsters the reliability of trial counsel’s
testimony that no expert would be likely to credibly counter the prosecution’s theory as to the cause of
death. See [18-27] at 9.
After review of the record, the court cannot find that the Illinois Appellaie Court’s conclusion
that petitioner failed to show prejudice was an unreasonable application of Federal law or based on an
unreasonable determination of the facts. Further, the court notes that the Seventh Circuit has held that
“counsel's failure to even reach out to an expert” may be deficient in certain cases. See Thomas v.
Clements, 789 F.3d 760, 111 (7th Cir 2015). Flere, however, counsel decided after consultation with an
expert that calling a rebuttal expert would be harmful to the defense; as such, the decision falls under the
category of “strategic choices made after thorough investigation of law and facts relevant to plausible
options [which] are virtually unchallengeable.” Vinyard v. United States, 804 F.3d 1218, (7th Cir. 2015).

5

Appendix B-5 Exhibit.

;

Thus, the court does not find that petitioner’s first Strickland claim based on failure to call an expert
merits relief under 28 U.S.C. § 2254.
E. The Right to Testify.
Next, petitioner raises two claims related to the fact that he did not testily at trial. First, he claims
that his trial counsel was ineffective under Strickland because he “unduly pressured” petitioner not to
testify. See [1] at 23. Petitioner also raises an independent claim that his constitutional right to testify
was infringed by this “undue pressure.” See Barrow v. Uchtman, 398 F.3d 597, 608 (7th Cir. 2005)
(noting that “the right to testify in one's own defense is a fundamental procedural right” and that “a
defendant must acquiesce fully and intelligently in counsel's attempts to waive that right-only the
defendant himself, not his lawyer, can waive the right to testify”). The Illinois Appellate Court affirmed
the dismissal of petitioner’s state habeas claim on these grounds, finding that “[petitioner’s] specific
allegations suggest that counsel actively discouraged defendant from testifying, but do not reveal any
‘undue’ pressure.” See [18-27] at 9. Because the two claims are inextricably intertwined, the court will
analyze them together.
First, the court has reviewed the record to determine trial counsel’s justification for persuading
plaintiff not to testify, including trial counsel’s testimony at the post-trial hearing related to petitioner’s
motion for a new trial. Trial counsel testified that petitioner’s intention was to testily that he had never
hurt the victim. If he had done so, the prosecution would be allowed to introduce o'herwise inadmissible
evidence that petitioner had previously abused the victim, including “one child that would testify that they
would count how many times [the petitioner] hit [the victim] or hit some of the other children when he
was disciplining them. Now that testimony would destroy our case.” See [18-11] at 62-63. The Seventh
Circuit has held that counsel’s recommendation to a defendant not to testify is not ineffective when it is
based on “a reasonable strategic decision . . . that he not testify because of the possible adverse
consequences of his doing so.” See Lee v. Murphy, 41 F.3d 311, 316 (7th Cir. 1994). Based on trial
counsel’s testimony and a review of the record that bolsters that testimony, this case does not support
petitioner’s contention that counsel’s recommendation not to testify was ineffective.
Next, with regard to petitioner’s right to testify, the Seventh Circuit has held that a defendant’s
right to testify may be infringed where “the totality of the circumstances evidences that [the defendant]
didn't knowingly acquiesce in his counsel's decision.” Ward v. Sternes, 334 F.3d 696, 707 (7th Cir.
2003). However, “a direct, unequivocal answer to a trial court's colloquy will suffice to find a knowing,
intelligent waiver” of the right to testily sufficient to overcome such a claim. See id. Here, the record
reveals that the trial court advised petitioner that “you alone posses the right to choose whether to testify
in your own behalf. You should make that decision after consulting with counsel.” See [18-8] at 60.
When petitioner consulted with counsel and stated that he did not wish to testify, the trial court also
advised that “the decision to testify or not testify is an intensely personal one” and that “the decision is
yours, yours alone.” See id. at 62. The trial court asked petitioner whether “you can assure me that [trial
counsel] has not forced, coerced you , or put any undue pressure on you to make this decision?” and
petitioner stated “Yes, Your Honor.” Id. The trial court asked whether petitioner had decided not to
testify “because that’s what you wish to do, because you consider that it is in your best interest” and
petitioner said “Yes, Your Honor” Id. Based on this unequivocal waiver, it is clear that petitioner’s right
to testify was not infringed.
Based on the foregoing, the court finds that petitioner’s claim of ineffectiveness and his claim that
his right to testify was infringed both do not merit relief under 28 U.S.C. § 2254.

Appendix B-S Exhibit,

y.r

i

F. Grand Jury False Evidence Claims.
Next, petitioner claims that the prosecution presented false evidence to the Grand Jury. His claim
is based: (1) on the date that prosecutors stated the victim’s injury occurred, which was the date petitioner
allegedly struck the victim, rather than the date the victim had fallen from a jungle gym weeks prior; and
(2) that an altered version of a written statement he had made was read to the jury rather than the original.
The Illinois Appellate Court affirmed the dismissal of his state habeas claims on these grounds, finding
that “there is no basis for defendant’s assertion that [the prosecution’s] grand jury testimony [regarding
the date of injury] was false or misleading” and that the court’s review of petitioner’s “original” and
“altered” statements “does not reveal any substantive discrepancies or support the implication that false
evidence was submitted to the grand jury.” See [18-27] at 5-7.
The court has reviewed the record and agrees with the Illinois Appellate Court, The
prosecution’s statement to the grand jury as to the date of the injury was based on the prosecution’s
theory of what had caused the victim’s death, which was supported by ample evidence. As such, it was
not misleading. Moreover, the “original” and “altered” statements by petitioner are functionally identical
in content, and as such even presenting an “altered” statement would not have been misleading. As such,
even assuming that misconduct before the grand jury would be the basis for section 2254 relief, in this
case petitioner’s “claim that alleged prosecutorial misconduct before the grand jury violated his due
process rights is without merit.” See United States, ex rel. Brown v. Pierce, 2012 WL 851519, at *4
(N.D. III. 2012) (noting that “[t]here is no clearly established Supreme Court precedent providing state
prisoners a due process right to be indicted by a grand jury solely on truthful testimony”).
G. Indictment Notice Claim.
Next, petitioner claims that his indictment was deficient and failed to give him sufficient notice
because it did not precisely mirror the Illinois murder statute and the jury instructions at trial.
Specifically, petitioner contends that his indictment did not provide him with sufficient constitutional
notice because it stated that his actions against the victim were made with knowledge of the strong
probability of “great bodily injury” rather than “death or great bodily injury.” The Illinois Appellate
Court affirmed the dismissal of petitioner’s state habeas claim on this ground, finding that “the argument
is refuted by the record, which shows that the jury was properly instructed on the offense charged in the
indictment.” See [18-27] at 10.
The Seventh Circuit has held that
[T]he United States Constitution does not require States to charge a defendant by
indictment. Accordingly, in considering the validity of an indictment, general due
process standards govern.
The question thus is whether [the defendant] had sufficient notice of the specific charge,
and a chance to be heard in a trial of the issues raised by that charge. So long as the
defendant has received adequate notice of the charges against him so that he has a fair
opportunity to defend himself, the constitutional requirement is met.
Ashburn v. Korte, 761 F.3d 741, 758 (7th Cir. 2014) (internal quotations and citations omitted) (finding
that the defendant “had more than adequate notice of the charges' against him” when the indictment set
forth the facts that supported the substantive offense, despite the fact that the indictment and juiy
instructions set forth “alternative manners” of proving the substantive offense of murder). Here, whether
7

Appendix B-7 Exhibit,

V\v

the language of the indictment precisely tracked the Illinois murder statute, it provided petitioner with a
fair opportunity to defend himself. As such, his claim of inadequate notice does not merit relief under 28
U.S.C. § 2254.
H. False Testimony at Trial Claims.
Next, petitioner claims that the prosecution presented false evidence at trial by (1) allegedly
coaching the victim’s brother to testify falsely; and (2) presenting allegedly perjured evidence from an
expert physician witness that he had reviewed a medical report regarding the victim’s fall from a jungle
gym, when email correspondence suggested that the physician had not read the report as of September
1998. The Illinois Appellate Court affirmed the dismissal of his state habeas claim on these grounds,
finding that, with regard to the brother’s alleged perjury, petitioner’s proffered evidence “suggests that
[the brother’s] testimony was coached [but does not indicate in what respect, if any, the testimony was
actually false” and, with regard to the expert’s alleged perjury, the “witness had an ample opportunity to
review the report” because “[t]he case did not proceed to trial until 2000.” See [18-27] at 7-8.
This case is functionally similar to Wilson v. Bryant, F. App’x. 782 (7th Cir. 2003), in which the
Seventh Circuit noted that “[t]he Supreme Court has made clear that a due process violation may occur if
a prosecutor knowingly introduces false testimonyf,]” but found that “[t]he problem, however, is that [the
petitioner] has not shown that [witness] testimony-or any other evidence presented by the prosecutionwas false, much less that the prosecutor knew of its falsity.” Id. at 784. Here, the court has reviewed the
record and petitioner’s arguments to this court, which does not deviate in any material respect from the
arguments and evidence considered by the Illinois Appellate Court when affirming the dismissal of
petitioner’s state habeas claim. For substantially the same reasons as the Illinois Appellate Court, this
court does not find that the petitioner has supplied any evidence that would tend to show even a
reasonable likelihood that the prosecution was knowingly aware of false testimony from the victim’s
brother or its expert witness. As such, the court cannot find that the Illinois Appellate Court’s findings
were an unreasonable application of Federal law or based on an unreasonable determination of the facts.
Thus, the court does not find that petitioner’s false evidence claim merits relief under 28 U.S.C. §
2254.
I. Jury Instructions Claims.
Next, petitioner claims that the trial court did not orally instruct the jury as required. While it
does not appear that the Illinois Appellate Court ruled as to petitioner’s claim that the trial court failed to
orally instruct the jury, after review it is clear that petitioner raised the claim at every level of his state
habeas proceedings, including during his appeal and PLA to the Illinois Supreme ('ourt; as such, he has
met his exhaustion “duty to fairly present his federal claims to the state courts.” Lewis v. Sternes, 390
F.3d 1019, 1025 (7th Cir. 2004) (“Fair presentment in turn requires the petitioner to assert his federal
claim through one complete round of state-court review, either on direct appeal of his conviction or in
post-conviction proceedings.”). As such, the last state court to rule on the issue was the trial court that
dismissed his habeas petition, which noted that “the Defendant’s claim is contradicted by the record
which indicates that the Judge read the instructions and verdict forms to the jury.” See [18-23] at 2. The
court notes that the record supports the trial court’s determination that the jury was orally instructed and
with proper instructions. See [18-8] at 148; [18-9]. Regardless, petitioner does not convince the court
that the failure to orally instruct the jury, even if a violation of state law, would constitute a violation of
his constitutional rights. See U.S. ex rel. Searcy v. Greer, 768 F.2d 906, 910 (7th Cir. 1985). As such,
petitioner’s claim on this ground does not merit relief under 28 U.S.C. § 2254.
8

Appendix B*8 Exhibit.

J. Claims Regarding Post-Trial Motion to Reconsider.
Finally, petitioner raises two claims related to his sentence and appeal. Immediately following
his sentencing hearing, post-trial counsel for petitioner informed the trial court that “Mr. Barmore has a
Notice of Appeal I would like to file rjght now” and “Also, he prepared a motion for reconsideration of
sentencing he would like to have filed today.” [18-12] at 76. Immediately, while petitioner was still
present, the prosecutor objected to the simultaneous filings and noted that “Just for the record, the
Defendant has filed Notice of Appeal, and he has filed a motion to reconsider sentence, and filing of
Notice of Appeal divests this Court of Jurisdiction.” Id. at 78. However, at the time, it appears that at
that time the trial court erroneously believed it could still hear the motion to reconsider, and a hearing on
that motion was scheduled. See id.
On the date that the hearing was scheduled, at which petitioner was not present, the trial court
appears to have reconsidered and correctly pointed out “I believe the motion, the Notice of Appeal, has to
be filed after a disposition on the Motion to Reconsider.” [18-12] at 88. The prosecutor agreed and stated
“I think they have to withdraw their appeal at this time if they want the Court to rule on the Motion to
Reconsider. I believe maybe [post-trial counsel] has to consult with his client on that.” Id. Post-trial
counsel responded “Yes, I would. He [petitioner] was insistent on filing it that day, so I think I will
consult with him to see what, you know, what he wants to do.” Id. at 89. 'Ihe matter was again
rescheduled.
At the date of the rescheduled hearing, at which petitioner was again not present, post-trial
counsel informed the court “Judge, this was up today for status Mr. Barmore’s Motion to Reconsider
Sentence. I spoke to Mr. Barmore on Monday. He indicated to me he wanted to withdraw that motion. 1
explained to him the legal ramifications of that. He would not be able to appeal his sentence if that
motion was not heard. He wants to just go ahead with the appeal. He wants to withdraw that motion.”
[18-12] at 96. The trial court responded “He wants to withdraw the Motion to Reconsider?” and also
pointed out that the court had “brought up an issue regarding timing of the Notice of Appeal.” Id. Post­
trial counsel responded “What I was going to talk to him about, I thought what we would do is withdraw
the Notice of Appeal and then proceed on the Motion to Reconsider, but he said he did not want to do
that. He wanted to withdraw this one.” Id. As such, the motion to reconsider was withdrawn and
petitioner proceeded with his appeal, which challenged his sentence along with the other claims discussed
above. The Illinois Appellate Court on direct appeal affirmed the sentence because petitioner had
withdrawn the motion to reconsider with knowledge that, he could not therefore challenge his sentence
and thus had “acquiesced in any alleged error in sentencing[.]” See [18-13] at 24.
Here, petitioner claims that: (1) the trial court committed error at the sentencing hearing for not
admonishing him that to challenge his sentence on appeal, he would need to first pursue the motion to
reconsider; and (2) post-trial counsel was ineffective for filing a motion to reconsider sentence
simultaneously with his notice of appeal. The Illinois Appellate Court affirmed the dismissal of
petitioner’s state habeas claim as to the failure to admonish, finding that the state law requiring
admonishment “was not in effect when defendant was sentenced.” See [18-27] at 10.
On both issues that petitioner has raised, the court notes that to succeed in a § 2254 petition,
petitioner must show prejudice for the trial court’s failure to admonish at sentencing or his post-trial
counsel’s ineffectiveness in filing both the notice of appeal and motion to reconsidei simultaneously. See
Thompkins v. Pfister, 698 F.3d 976, 986 (7th Cir. 2012). The fact remains that regardless of any error by
the trial court or deficient performance by counsel, the issue was immediately pointed out by the
prosecutor while petitioner was present. Later, post-trial counsel explained the legal ramifications of the
9
Appendix B-9 Exhibit,

,r

issue and its solution to petitioner, namely that he temporarily withdraw the notice of appeal until the
motion to reconsider had been resolved. Post-trial counsel’s solution was presented to petitioner at a time
when the issue could have easily been rectified with no prejudice to petitioner’s appeal. Petitioner
nevertheless knowingly chose to withdraw his motion to reconsider rather than follow post-trial counsel’s
proposed solution. Petitioner has not proposed and the court has found no evidence to support a finding
that post-trial counsel was being disingenuous when explaining his conversations with petitioner on this
point. As such, the court cannot find that petitioner was prejudiced by any error of the trial court at
sentencing or post-trial counsel’s initial error in filing the motion to reconsider and notice of appeal
simultaneously. Thus, petitioner’s claims on these grounds do not merit relief under 28 U.S.C. § 2254.
While petitioner attempted to raise various claims for relief in his § 2254 petition, the court finds
his collateral claims are without merit and does not find that “reasonable jurists could debate whether . . .
the petition should have been resolved in a different matter[.]” Id. Thus, because there is no substantial
constitutional question for appeal, the court declines to issue a certificate of appealability. The matter is
terminated.
Date: 7/12/2017

ENTER:

United States District Court Judge

Notices mailed by Judicial Staff. (LC)

10
Appendix B-10 Exhibit.

3Imteh jltates (Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
October 15, 2020
Before
MICHAEL S. KANNE, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

No. 17-2922
KEITH BARMORE,
Petitioner-Appellant,

Appeal from the United States District
Court for the Northern District of Illinois,
Western Division.

v.
No. 15 C 50108
JOHN VARGA,
Respondent-Appellee.

Philip G. Reinhard,
Judge.
ORDER

On consideration of the petition for rehearing and for rehearing en banc filed on
September 18, 2020, no judge in active service has requested a vote on the petition for
rehearing en banc. Judge Kanne has voted to deny panel rehearing. Judge Scudder, who
has been substituted for Judge Barrett, likewise has voted to deny panel rehearing.
Accordingly, IT IS ORDERED that the petition is DENIED.

appendix C-1 Exhibit,

*

No. 2 -- 00--1263
CALLUM, J., with O'MALLEY, J. , concurring.
JUSTICE BOWMAN dissenting:
I respectfully dissent because I believe the majority erred in
finding that the prosecutor's remarks during closing argument were
harmless beyond a reasonable doubt.
A prosecutor is allowed a great deal of latitude in presenting
closing argument.

People v. Buss, 187 Ill. 2d 144,

244

(1999)

Every defendant, however, has a right to a trial free from improper
prejudicial comments or arguments by the prosecutor.
Simms,

192

Ill.

2d

348,

396

(2000).

Whether

People v.

a prosecutor's

comments or remarks constitute prejudicial error is determined by
the language used, its relation to the evidence, and the effect of
the argument on the
trial.

Simms,

defendant's right to a fair and impartial

192 Ill.

2d at 396.

The test

for reversing a

conviction based 6n the remarks of a prosecutor is whether the jury
would have,reached a contrary verdict had the improper remarks not

4'

been made.

People v. Heard.

187 Ill. 2d 36, 73

(1999).

Whether

the remarks require reversal of the defendant's conviction depends
upon the facts of each case.

People v. Coleman. 51 Ill. App. 3d

499, 515 (1977).
In his closing argument the prosecutor referred to defendant's
/-

conduct as "beyond comprehension ★ ★ ★ reprehensible ★ ★ ★ despicable. "
He then remarked:
"But what is even more despicable about this abuse is
this abuser' s attempt to play with the system here and go and
get

an

involuntary

manslaughter

conviction,

responsibility for delivering that abuse."
-24Appendix D-1 Exhibit,

escape

(Emphasis added.)

X.

No. 2 -- 00--12 63
This remark constituted a misstatement of the law, as it told the
jury that finding defendant guilty of involuntary manslaughter,
rather

than

first

responsibility."

degree murder,

would permit

him

to

"escape

Also, by stating that defendant was attempting to

"play with the system"

the prosecutor implied that defendant did

not have the right to seek a conviction on the lesser-included
offense of involuntary manslaughter.
In

People

v.

Howard,

232

Ill.

App.

3d

386

(1992),

the

prosecutor in asking the jury to find defendant guilty of murder
remarked in his closing argument that "involuntary manslaughter
does not apply" and "it is a cop-out."
prosecutor

in

Howard was

telling

As in the present case, the

the

jury that

a

finding

of

involuntary manslaughter provided the defendant with a means for
avoiding responsibility for killing the victim.

The court

in

i

Howard determined that "there is not a scintilla of evidence to
support the prosecutor's conclusion that involuntary manslaughter

I*

did 'not apply' and was a

cop-out.

1- II

Howard, 232 Ill. App. 3d at

390 .
The majority recognizes that comments such as those made in
Howard and in the present case have been deemed "highly improper."
Nonetheless, the majority determines that the prosecutor's comments
in the present case are harmless given the overwhelming evidence of
defendant's guilt.
In the present case the indictment charged that defendant
knowingly caused Kevon's death by striking the child's head on a
surface.

The

evidence

the

State

presented

was

essentially

circumstantial, as there was no eyewitness to the act charged in
-25Appendix D-2 Exhibit.

No. 2--00--1263
the indictment as causing the child's death.
Thus, based on the
.
o
evidence presented, I believe the jury could have found defendant
acted recklessly rather than knowingly in performing the act which
caused the child's death.

However, by arguing to the jury that a

finding of involuntary manslaughter would allow defendant to "play
with the system" and "escape responsibility" for his conduct, the
prosecutor may have influenced the jury to find otherwise.
The majority asserts that the only evidence suggesting that
defendant acted recklessly was the fact that "he had acted out of
rage" and that, under the holding in People v. Rodriguez. 275 Ill.
App.

3d 274

recklessness.

(1995),

such emotion indicates

knowledge

and not

In Rodriguez the defendant admitted hitting the

three-year-old victim in the stomach because he was angry that she
had defecated in her pants and he had soiled his hand on her feces.
The court determined that defendant's admission that he struck the
victim out; of anger negated a finding of recklessness because
"[a]

'

person who is driven by his bad temper to injure or kill

another

acts

knowingly,

or

intentionally,

not

recklessly."

'

Rodriguez. 275 Ill. App. 3d at 285, quoting People v. Summers. 2 02
Ill. App. 3d 1, 11 (1990) .
Both in Rodriguez and in Summers, however, there was a pattern
of abuse by the defendants against the victims which, as pointed
out by the court in Summers, demonstrated hatred of the victim and
the wish to seriously harm the victim
at 11) .

Under such facts,

(Summers. 202 Ill. App. 3d

I would agree that one acting out of

anger acts knowingly or intentionally and not recklessly.
however,

the

only

evidence

of

defendant's

-26appendix D-3 Exhibit*

anger

was

Here,
O.D.'s

0

No. 2--00--1263
testimony that he observed defendant shaking Kevon and asking him
why he was going back to his old habits.

There was no evidence of

prior verbal or physical abuse and no evidence of defendant's
hatred or desire to seriously injure Kevon.
believe

the

evidence

showed defendant was

temper" to injure or kill the victim,

Consequently, I do not
"driven by his

bad

as were the defendants in

Rodriguez and Summers.
In my opinion, this case presented a close question concerning
whether the injury causing Kevon's death was performed knowingly or
recklessly by defendant, as no one witnessed the impact that caused
the "bump noise" heard by O.D.

That the jury had some concerns

regarding defendant's mental state was reflected in the question
the jury sent to the judge after 2% hours of deliberations.

The

jury asked the judge to interpret the meaning of "knowing" in the
murder elements instruction asking, "Does this mean the defendant
has

to knpw

'instantly, '

and not at

some

later

point?"

The

majority maintains that this question does not give rise to the
inference that the jury must not have thought that the evidence of
defendant's mental state for first-degree murder was overwhelming,
as

defendant

contends.

Rather,

the majority

asserts,

"[t]he

question does not bear on the strength of the evidence that, as a
matter of fact, defendant satisfied the legal definition of the
mental state for first-degree murder."
In my view, the jury's question directly pertained to whether
the

evidence

recklessly.

established

that

defendant

acted

knowingly

or

The question implied that the jury was experiencing

some confusion regarding whether defendant had to know at the time
-27Appendix D-4 Exhibit.

\

/No. 2 - - 00- -1263
j/
j/

of his act that the act created a strong probability of death or
great bodily harm or whether that knowledge could occur after the
act

had

been

performed,

The

latter

scenario

would

support

defendant's contention that he acted recklessly.
The death of Kevon was a horrible tragedy,

Yet, I believe the

evidence was such that the jury could have found that defendant
acted recklessly rather than knowingly in causing
death.

the child's

The prosecutor's improper comment to the jury that an

involuntary manslaughter conviction would allow defendant to escape
responsibility for Kevon's death, told the jury that it should not
reach this result,

Under the facts of this case,

I would find

that, without the prosecutor's improper remarks, the jury may have
reached

a

different

verdict.

Accordingly,

I

defendant's conviction and remand for a new trial.

Appendix

Exhibit

would

reverse

-c.

\
*'4

Case: 17-2922

Filed: 10/12/2017

Document: 11

Pages: 3

No. 17-2922
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
)
)
)

KEITH D. BARMORE,
Petitioner-Appellant,

Appeal from the United States
District Court for the Northern
District of Illinois, Western Division

)

)

v.

No. 15 C 50108

)

JOHN E. VARGA,
Respondent-Appellee.

)
)
)

The Honorable
Philip G. Reinhard,
Judge Presiding

CORRECTED DOCKETING STATEMENT
Pursuant to Circuit Rule 3(c), respondent JOHN E. Varga files this corrected
docketing statement.
1.

Petitioner filed a petition for a writ of habeas corpus in the district

court. Doc. 1. The district court had jurisdiction pursuant to 28 U.S.C. §§ 1331,
2241, and 2254.
2.

The district court entered a judgment disposing of all parties claims on

July 12, 2017. Doc. 39.1 In an accompanying memorandum opinion, the district
court denied the habeas petition and denied a certificate of appealability. Doc. 38.
3.

On August 7, 2017, petitioner filed both a motion to alter or amend the

judgment pursuant to Fed. R. Civ. P. 59(e), Doc. 40, and a notice of appeal, Doc. 41.
/
I

The case was docketed in this Court as Barmore v. Varga, Appeal No. 17-2595.

1 Unless otherwise specified, citations to “Doc._ refer to entries on the
district court’s electronic docket.
Appendix EM /Exhibit .

*
i
!

Case: 17-2922

4.

Document: 11

Filed: 10/12/2017

Pages: 3

Because the district court had not yet ruled on the Rule 59 motion, the

notice of appeal was premature, and petitioner voluntarily dismissed Appeal No. 172595. See 7th Cir. Appeal No. 17-2595, Docs. 12 (motion to dismiss) & 13 (order
granting motion).
5.

The district court denied petitioner’s Rule 59 motion on September 5,

2017. Doc. 53. Petitioner filed a timely notice of appeal on September 18, 2017.
Doc. 54;. see Fed. R. App. P. 4(a)(4)(A) (thirty-day period for filing notice of appeal
“runs . . . from the entry of the order disposing” of last Rule 59 motion).
6.

This Court has jurisdiction pursuant to 28 U.S.C. §§ 1291 and 2253.

7.

Petitioner is currently confined at Dixon Correctional Center, where

Respondent-Appellee John Varga is warden. Respondent appears in his official
capacity.
October 12, 2017

Respectfully submitted,
Lisa Madigan
Attorney General of Illinois
Is/ Erin M. O’Connell______________ _
Erin M. O’Connell
Assistant Attorneys General
100 West Randolph Street, 12th Floor
Chicago, Illinois 60601-3218
Phone: (312) 814-1235
Fax: (312) 814-2253
Email: eoconnell@atg.state.il.us

y

!

2
Appendix E-2 Exhibit.

I

/
i.

I

f

i
t

j

Case: 17-2922

Document: 11

Filed: 10/12/2017

Pages: 3

CERTIFICATE OF SERVICE

-assHSfHssis
gtates
the same date, I mailed a copy of this document, via
Service, to the following non-CM/ECF-user.

. On

Keith D. Barmore, R00683
Dixon Correctional Center
2600 N. Brinton Avenue
Dixon, Illinois 61021

1

Is/ Erin M. O’Connell______
Erin M.-O’Connell
Assistant Attorney General

t;..,

Appendix E-3 Exhibit*

i

)

I

r
■>

*

'V

JF

ROCKFORD POLICE DEPARTMENT
77
location of offense

NARRATIVE
REPORT

OTHER

478 OFFENSE

2330 Kilburn Ave.
9 BOX
NUMBER

□

2

to
Oo

I

o

Child Abuse

480 VICTIM'S NAME

O'

o
•"J

481 CONTINUATION OF:

Middletonwright, Kevon D.

D ORIGINAL

BySUPPLFMEMT

O ACCIDENT

00

Oil

2*
S:

§;
I

said she did but that his grandfather didn't see them.

:

I asked Danetrik if he loved his dad.
mean".

Danetrik said, "Mo, because he's

I asked Danetrik where Keith pushed Kee Kee down. Danetrik said,
^^Llwg,/". I asked Danetrik why that happened. Danetrik said, "Because Kee
11
Kee threw
k
t

I asked Danetrik if he ever got pushed down, fie said he did and told me
that Keith (Sr) did that to Danetrik. Danetrik told me he had seen Keith
C*
(Sr) push Kee Kee down before.
We concluded our interview with Danetrik at 1020 hours and spoke to Pam
Parks.
m

told us that O.'D. refused to talk to us (police) anymi
ause
- - he explained to her that foe. alreaidy told ua the truth. She
':
told me he >
-------seems'to have a difficult, time thinking about
j

7

Pam Parks explained that-when Danetrik told Karel Dunlap this recent
^-information about/The ho^e being a "lie" she (Pam)
====,!was very surprised.
-------------P8ffl__ex£laiine^^to_^8_that^^the )cids seem to be opening up more with her and
mentioned that they feel^safe.

•p
•H

XI

•H
X!
X

W
i

We left the Park's residence at 1045 hours.

x

r

•H
Tf

I cabled Dave Reinhard fjoa the States Atorney's Office on 06-09-98
because I was told he was handling the case against Cynthia Barmore
I
asked him if he could add a "no contact clause" if/when Cvnthia posted
bond or received a bond reduction. He agreed.

G
a
(1)

a

<

484 PAGE
A..

I spoke to Karel Dunlap pn 06-15-98.

She told me that Cynthia is no
longer incarcerated and has supervised visitations with her children
482 REPORTING OFFICERS SIGNATURE

S) <&\J AA/i! / m

■ STAR#

i //u

*2\
OF

483 RECORD NUMBER
PAGES

4J
•H

£>
•H

x
i<
(a

.

, ’V

' :?
'

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscou rts. gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER

September 18, 2020
By the Court:
KEITH D. BARMORE,
Petitioner - Appellant
v.

No. 17-2922

JOHN E. VARGA,
Respondent - Appellee
<>

- Originating Case Information:
District Court No: 3:15-cv-50108
Northern District of Illinois, Western Division
District Judge Philip G. Reinhard

The following is before the court: PETITION FOR REHEARING BY PLAINTIFF/
PETITIONER FOR EN BANC, filed on September 15, 2020, by pro se appellant.
S'

On September 15, 2020, this court received a petition for rehearing from the pro se appellant,
which the court construes as a motion to recall the mandate and file a petition for rehearing.
IT IS ORDERED that the motion is GRANTED and the mandate is RECALLED. The clerk
of this court shall file INSTANTER the tendered petition for rehearing.

form name: c7_Order_BTC(form ID: 178)

Appendix G:-i Exhibit,

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
WESTERN DIVISION
Keith D. Barmore (R-00683),

)
)

Petitioner,

)

v.

)
)

)
Thomas Spiller, Warden of Pinckneyville
Correctional Center,
Respondent.

Case No: 15 C 50108

Judge Philip G. Reinhard

)
)
)
)

ORDER
The court has received petitioner’s timely-filed motion for reconsideration [40] as to the
court’s order [38] denying his 28 U.S.C. § 2254 petition [1]. In the motion to reconsider,
petitioner challenges the court’s reasoning as to his various respective claims for relief.
However, while petitioner uses the boilerplate language that the court has made a- manifest error
of law or fact, after thorough review,- the court can discern no argument that was not already
articulated by petitioner in the materials previously considered by the court. In short, the court
has already considered the arguments and factual statements made by petitioner in his motion for
reconsideration, and has concluded that petitioner is not entitled to relief for the reasons
articulated in the court’s July 12, 2017 order. Petitioner’s motion does not convince the court
that it has made any “manifest error of fact or law,” including any misapprehension of
petitioner’s arguments. See Baker v. Lindgren, 856 F.3d 498, 507 (7th Cir. 2017). As such,
petitioner’s motion to reconsider [40] is denied. Finally, the court notes that a number of other
motions remain pending, which pertain to petitioner’s appeal of the court’s July 12, 2017 order.
Petitioner’s appeal has subsequently been voluntarily withdrawn and, as such, all pending
motions [45]; [46]; [48]; [50] are denied as moot.
Date: 9/05/2017

ENTER:

United States District Court Judge
Notices mailed by ,'udicial Staff. (LC)

Exhibit 2.
Appendix H-1 Exhibit.

tsetse. o.wuv "OV

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
WESTERN DIVISION
)
)

Keith D. Barmore (R-00683),

)

Petitioner,

Case No: 15 C 50108

)
)

v.

)

Judge Philip G. Reinhard

)
).
)
)

Thomas Spiller, Warden of Pinckneyville
Correctional Center,
Respondent.

ORDER
. Barmore fded in

This matter
391 and on Septembe 5 =1017 tte

^ ^ ^ forma pauperis [59], a

“or Ruction of the record on apped

-

'th^on^ots^ m

mss

finding drat there was no

i

“ St should have been resolved in a different

raattern” sie^Sl^For substantially the same reasons, the court finds that appeal is not taken m
" h,t j as such denies the motion
™
ncr s 19l5taV3V Hains v. Washington, 131 F.3d 1248, i/ou f/m v^u. iy

to the Seventh Circuit, along with this order.
ENTER:

Date: 9/20/2017

United States District Court Judge
Notices mailed by Judicial Staff. (LC)

Exhibit 3.
Appendix
)
I

/'

